OFFICE OF INSPECTOR GENERAL


AUDIT OF SELECTED
USAID/UGANDA’S P.L. 480
TITLE II PROGRAM ACTIVITIES
AUDIT REPORT NO. 4-617-11-001-P
NOVEMBER 10, 2010




PRETORIA, SOUTH AFRICA
Office of Inspector General


November 10, 2010

MEMORANDUM

TO:                  USAID/Uganda Mission Director, David Eckerson
                     USAID/Democracy, Conflict and Humanitarian Assistance/Office of Food for
                     Peace Director, Brooke Isham

FROM:                Acting Regional Inspector General/Pretoria, Robert W. Mason /s/

SUBJECT:             Audit of Selected USAID/Uganda’s P.L. 480 Title II Program Activities
                     (Report No. 4-617-11-001-P)

This memorandum transmits our report on the subject audit for your review and comment. The
report includes 11 recommendations to strengthen USAID/Uganda’s P.L. 480 Title II program.
In finalizing the report, we carefully considered your comments on the draft report and have
included those comments (without attachments) in appendix II.

Based on management’s comments and the supporting documentation provided, we consider
that management decisions have been reached on Recommendations 1 through 10, with final
action taken on Recommendations 3, 5, 6, 8, and 9. Recommendations 3, 5, 6, 8, and 9 are
thus closed upon report issuance. Please provide the Audit Performance and Compliance
Division in the USAID Office of the Chief Financial Officer (M/CFO/APC) with the necessary
documentation to achieve final action on Recommendations 1, 2, 4, 7, and 10.

Recommendation 11 remains without a management decision. For this recommendation,
management’s comments do not address how the branding strategy for the P.L. 480 Title II
nonemergency food aid program in Uganda will be revised to focus more on direct
communication with project beneficiaries. Please provide us written notice within 30 days of any
actions planned or taken to address Recommendation 11.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street X5
Pretoria, South Africa 0027
www.usaid.gov/oig
CONTENTS
Summary of Results ........................................................................................... 1

Audit Findings ..................................................................................................... 4

     The Reliability of Performance Data Is Unknown............................................ 4

     Storage Conditions for Food Commodities Need Improvement...................... 6

     Adequate Controls Over Food Distribution Were
     Not Fully Implemented .................................................................................. 10

     Some Food Aid Recipients Were Outside Targeted Population .................. 11

     Effectiveness of USAID Branding Needs to Be Improved............................. 12

Evaluation of Management Comments ........................................................... 14

Appendix I – Scope and Methodology ............................................................ 18

Appendix II – Management Comments ........................................................... 21
SUMMARY OF RESULTS
The Food for Peace Act (Agricultural Trade Development and Assistance Act of 1954),
also known as Public Law 480 (P.L. 480), is the U.S. Government’s principal mechanism
of implementing its international food assistance initiatives. Under Title II of the P.L. 480
program—managed by USAID’s Office of Food for Peace—the U.S. Government
donates agricultural commodities to support emergency and nonemergency food
assistance programs.

Since fiscal year 2006, total Food for Peace contributions to USAID/Uganda were valued
at $237 million, with approximately $116 million (49 percent) allocated for nonemergency
food aid program activities. Of the 319,320 metric tons of food received by the
USAID/Uganda Food for Peace program, 108,500 metric tons (34 percent) have been
allocated for nonemergency food aid program activities.

USAID/Uganda’s P.L. 480 Title II nonemergency food aid program was designed with
the goal of expanding sustainable economic opportunities for improved livelihoods. The
mission’s direct food aid distribution program mitigates food insecurity by supporting the
following types of development projects that promote household nutrition and increase
agricultural production:

    •   Food-for-work: Pays workers with food commodities to improve market
        accessibility, increase crop production, and enhance community linkages.
    •   Direct distribution to vulnerable populations: Distributes commodities to
        vulnerable groups such as pregnant or lactating women and malnourished
        children under age 5 to improve their nutrition and health.
    •   Direct distribution to HIV/AIDS patients: Distributes commodities to people
        living with human immunodeficiency virus/acquired immunodeficiency syndrome
        (HIV/AIDS).
    •   Agricultural activities: Disseminates seeds, tools, and agricultural techniques
        to improve food production.

To achieve these goals, USAID/Uganda entered into 5-year Multi-Year Assistance
Programs with two cooperating sponsors. These programs operate in areas of northern
Uganda formerly affected by conflict and target food-insecure populations, particularly
internally displaced persons. These programs are designed to strengthen basic
agricultural practices, reduce food insecurity, improve utilization of food to rapidly
improve health and nutrition, and increase rural household incomes in the post-conflict
setting.

ACDI-VOCA 1 has a $76 million cooperative agreement, established in 2006, to reduce
food insecurity among vulnerable populations through improved production and
utilization of food in Uganda by 2011. The program includes two major objectives:



1
 ACDI/VOCA is responsible for the Title II monetization projects; it carries out a direct distribution
program and has 18 nongovernmental organizations as subgrantees carrying out its development
activities.


                                                                                                    1
    •   By 2011, reduce food insecurity among 170,600 farmers in northern Uganda and
        increase their nutritional status through better production and use of food. 2
    •   By 2011, provide food supplements to 42,000 people living with HIV/AIDS and
        their families to help improve their nutritional status and ability to tolerate
        antiretroviral treatments.

Mercy Corps has a $39.5 million cooperative agreement, established in 2008, to create
peaceful, healthy, and food-secure communities for war-affected people in northern
Uganda by 2013. The program includes three major objectives:

    •   By 2013, improve access to food by increasing food production of smallholder
        famers and vulnerable women.
    •   By 2013, improve health and nutrition by improving the quality of care for
        beneficiaries and promoting healthy behaviors and optimal dietary practices.
    •   By 2013, increase the availability of safe water resources and sanitation facilities,
        and promote the adoption of hygienic practices.

Both cooperating sponsors worked with local governments and communities to increase
resiliency at the community level, with programs aimed at developing each community’s
capacity to direct its own development and relief activities in order to achieve these
objectives.

The objective of this audit was to determine if selected USAID/Uganda’s Title II
nonemergency food aid assistance activities were achieving their main goals of
decreasing food insecurity and increasing resiliency. Resiliency refers to the capacity of
a community potentially exposed to hazards to adapt, by resisting or changing in order to
reach and maintain an acceptable level of functioning and structure. This is determined
by the degree to which the community is capable of organizing itself to increase its
capacity for learning from past disasters for better future protection and to improve risk
reduction measures.

This audit determined that USAID/Uganda’s implementation of the P.L. 480 Title II
nonemergency assistance has generally resulted in the delivery of food commodities to
intended beneficiaries, including HIV/AIDS-affected households, vulnerable
populations, 3 and individuals participating in food-for-work projects. People affected by
HIV/AIDS, for example, described how the receipt of USAID commodities helped
improve their health. Food-for-work beneficences said that the food-for-work projects
resulted in improved farming techniques that increased crop yields and eased access to
markets. Thus, this audit concludes that USAID/Uganda’s food security activities have
made some progress in achieving their main goals of reducing food insecurity and
increasing resiliency in vulnerable communities.

However, it was not possible to quantify the overall impact of the program because of a
lack of quantitative data and problems with data quality, which prevented the auditors
from fully evaluating the program. Specifically, it was difficult to quantify the overall
impact of the P.L. 480 program because:


2
  The number of farmers was reduced from 170,600 to 139,000 during the latest program
restructuring in 2010.
3
  Vulnerable populations include pregnant or lactating women and malnourished children.


                                                                                           2
   •   USAID/Uganda’s cooperating sponsors primarily collect and report on
       operational results, with less of an emphasis on impact.
   •   Nine of 11 performance indicators used to reflect the results from the program
       are baseline indicators, which are measured only at the beginning, midpoint, and
       the end of the program.
   •   USAID/Uganda did not take steps to ascertain the quality of cooperating
       sponsors’ performance data, meaning that the reliability of performance data is
       unknown (page 4).

In addition, the audit identified several areas within USAID/Uganda’s management of the
P.L. 480 Title II nonemergency direct food aid distribution program that need to be
improved. Specifically:

   •   Storage conditions for food commodities need improvement (page 6).
   •   Adequate controls over food distribution were not fully implemented (page 10).
   •   Some food aid recipients were outside targeted population (page 11).
   •   USAID branding practices need to be improved (page 12).

To assist USAID/Uganda in strengthening its management of the P.L. 480 Title II
nonemergency direct food aid distribution program. the report recommends that—

   •   USAID/Uganda, in conjunction with the Food for Peace Office in Washington,
       DC, create a document that formally outlines the responsibilities and authorities
       of the USAID/Uganda Food for Peace project managers (page 5), establish
       written procedures to ensure that site visits provide for data quality testing and
       adequate documentation of the test results (page 5), correct the problems
       identified in the August 2009 data quality assessment of its program (page 6),
       conduct a followup data quality assessment of its program (page 6), and conduct
       training on data quality assessment to the implementing partner and subpartner
       and to define how data should be collected for its program (page 6).
   •   USAID/Uganda, in conjunction with its cooperating sponsor, develop a plan of
       action with a timetable to improve the warehouse inspection process, to raise
       awareness of storage guidelines, and to ensure that commodities are regularly
       inspected and fumigated, as needed (page 9); and require its cooperating
       sponsors to develop policies and procedures for the storage, handling, and
       inspection of commodities and warehouses (page 9).
   •   USAID/Uganda direct the cooperating sponsor to develop, implement, and
       monitor a document retention list (page 10), ensure that cooperating sponsors
       develop and implement written procedures for food distribution, including use of a
       complete beneficiary database (page 11), and revise existing agreements (page
       12).
   •   The USAID Office of Food for Peace revise its branding strategy for the P.L. 480
       Title II nonemergency food aid program in Uganda to focus on direct
       communication with project beneficiaries (page 13).

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                        3
AUDIT FINDINGS
The Reliability of
Performance Data
Is Unknown
Reported Results Were Not Verified. USAID’s Automated Directives System (ADS)
states that monitoring the quality and timeliness of outputs produced by implementing
partners is a major task of an agreement officer’s technical representative (AOTR) and
assistance objective teams. It specifies that problems in output quality provide an early
warning that results may not be achieved as planned and that early action in response to
problems is essential in managing for results. 4

To assess the quality of partner data, USAID’s Performance Management Toolkit
(Toolkit) recommends periodically sampling and reviewing partner data to ensure
completeness, accuracy, and consistency and determine whether the partner
appropriately addressed known data quality problems. 5 The Toolkit also recommends
developing a simple site visit guide, covering all topics of interest, to be used
systematically by teams visiting all sites.

However, the audit determined that even though Food for Peace officials were
conducting site visits, they did not verify the quality of reported performance data during
those visits. This occurred for several reasons:

    •   Undefined delegation of duties. One of an agreement officer’s technical
        representative’s responsibilities is to ensure that reported data are correct.
        However, the USAID/Uganda Food for Peace program agreement officer’s
        technical representative is located in Washington, DC, and as of April 2010 had
        not visited any program activities. When asked how he ensures the reliability of
        the reported data, he replied that it is the responsibility of mission Food for Peace
        staff to validate and certify that the reported data are accurate. However,
        according to mission staff, they do not have written responsibilities regarding
        management of the program. Consequently, verification of data is hindered
        because the cooperating sponsors do not cooperate with mission staff, and as a
        result the mission Food for Peace staff cannot attest to the validity of the data.

    •   Lack of training and standardized guidance. According to mission officials,
        the failure to verify and validate data also resulted from a lack of training for
        mission staff during the Food for Peace nonemergency program’s rapid
        expansion. Mission officials stated that it was their understanding that site visits
        should focus exclusively on activity implementation and the examination of
        quality of services provided. Additionally, although the USAID/Uganda mission
        order covering monitoring and evaluation requires the preparation of technical

4
 ADS 202.3.6
5
 This document is listed on USAID’s Web site as a reference for its ADS Series 200 – Program
Policy. Refer to Part II, Task 4, for additional guidance on collecting baseline data and verifying
data quality.


                                                                                             4
        officer site-visit reports, it does not include a standard site visit report. 6 Although
        an additional mission order specifically addressing site visits does include a
        format for such reports, it does not contain specific requirements for data quality
        testing. 7

    •   Undue reliance on cooperating sponsors and a contractor. According to
        mission staff, they relied on the cooperating sponsors and a mission contractor 8
        to ensure that submitted data were correct and accurate. However, the audit
        noted that cooperating sponsors were not conducting data verification, and the
        contractor stated that they were only responsible for supporting cooperating
        sponsors in collecting and reporting, but not verifying, performance data.

As a result, mission staff certified reported data without ensuring that they were correct.
Having accurate and reliable data is a key element in making well-reasoned
management decisions. Without knowing the strengths and weaknesses of reported
data, USAID officials cannot adequately determine the extent to which such data can be
trusted in making those decisions. Consequently, this audit makes the following
recommendations to assist USAID/Uganda in assessing the integrity of its performance
data:

    Recommendation 1. We recommend that USAID/Uganda, in conjunction with
    the Office of Food for Peace in Washington, DC, create a document that formally
    outlines the responsibilities and authorities of the USAID/Uganda Food for Peace
    project managers.

    Recommendation 2. We recommend that USAID/Uganda establish written
    procedures to ensure that site visits provide for data quality testing and adequate
    documentation of the test results and provide training to mission staff on those
    procedures.

Data Quality Assessment Recommendations Were Not Fully Implemented.
According to USAID’s ADS 203.3.5.1, high-quality data are valid, have integrity, are
precise, are reliable, and are timely. USAID uses data quality assessments to determine
whether program data meet these standards and to determine the extent to which the
data can be trusted as a basis for management decisions.

To its credit, USAID/Uganda performed a data quality assessment of its P.L. 480
nonemergency food aid program in 2009. This assessment noted significant problems
with two of the five key performance indicators reported on by one of the cooperating
sponsors reviewed in this audit. 9 Examples of these problems include the need for a
6
  Mission Order No. MO200-2, “Performance Monitoring and Evaluation,” dated May 30, 2008.
7
  Mission Order No. MO200-6B, “Activity Site Visit Report” dated October 17, 2007.
8
  The mission entered into a $7.5 million agreement with The Mitchell Group Inc. in May 2008 to
implement USAID/Uganda Monitoring and Evaluation Management Services II. The contract’s
main purpose is to design and implement a comprehensive performance management,
monitoring, and reporting program, including evaluation services, in accordance with the detailed
statement of work, to support the USAID/Uganda Strategic Objective Teams in carrying out their
performance measurement, activity monitoring, and planning responsibilities.
9
  Food for Peace program staff indicated that performance indicators listed in the performance
plan and report were “key” indicators, meaning that they were the most important in assessing
program performance.


                                                                                               5
vigorous system to detect and control the duplication of data and the need for a
dedicated monitoring and evaluation person to collect and maintain data.

In addition to identifying these significant problems, the data quality assessment noted
the actions needed to correct them. Although the data quality assessment was
performed in August 2009, contrary to good management practices USAID/Uganda did
not take action to rectify the problems identified in the assessment. The audit team
noted during one site visit that even though Mercy Corps has hired a full-time monitoring
and evaluation person, it is still awaiting directions on how to collect the data for some
performance indicators.

Good management practices dictate that managers take prompt action to address
problems that arise.         Neglecting to address issues presented in data quality
assessments can result in reported data that are inaccurate and unreliable. Because the
mission did not fully address the results of the 2009 data quality assessment, problems
still exist with the quality of P.L. 480 nonemergency food aid program data. Therefore,
this audit makes the following recommendations to ensure that the mission takes action
on the issues identified in the data quality assessment and that a followup data quality
assessment is scheduled in a timely manner: 10

     Recommendation 3. We recommend that USAID/Uganda correct the problems
     identified in the August 2009 data quality assessment of its P.L. 480 Title II
     program.

     Recommendation 4. We recommend that USAID/Uganda conduct a followup
     data quality assessment of its P.L. 480 Title II program.

     Recommendation 5. We recommend that USAID/Uganda conduct training on
     data quality assessment for the implementing partner and subpartner to define
     how data should be collected for its P.L. 480 Title II program.

Storage Conditions for
Food Commodities
Need Improvement

According to Generally Accepted Commodity Accountability Principles, Principle IV-2, 11
commodity management organizations should establish and use appropriate storage
and handling procedures to help ensure quality and minimize losses. The USAID
Commodity Reference Guide states that sound storage procedures should also be
followed in order to minimize insect and rodent problems. Specifically, the guidelines
require warehouse cleanliness, segregation of damaged food, routine inspection for any

10
   Per ADS 203.3.5.2, data reported to USAID/Washington for Government Performance and
Results Act reporting purposes or for reporting externally on Agency performance must have had
a data quality assessment at some time within the 3 years before submission.
11
    The Generally Accepted Commodity Accountability Principles are a set of professional
standards relating to management, handling, tracking, and reporting on the use of food
commodities in the international development and relief program. They are compiled and
published by Food Aid Management, an association of private voluntary organizations engaged in
international food aid programming.


                                                                                            6
visual signs of insect infestation, and fumigation to destroy all stages of insects that may
be present. Further, they state that just because there are no visual signs of residual kill,
insects or rodents may recontaminate the commodity immediately after fumigation.
Therefore, in order to protect stored foods, a great emphasis must be placed on cleaning
in order to avoid commodities contamination, especially if sprays and fogs are used to
eliminate insects. 12

Further, 22 CFR 211.5(b) highlights program supervision as one of the responsibilities of
cooperating sponsors. Cooperating sponsors must provide adequate supervisory
personnel for the efficient operation of the program, including personnel to—

     •   Plan, organize, implement, control, and evaluate programs involving distribution
         of commodities or use of monetized proceeds and program income, and
     •   Make warehouse inspections, physical inventories, and end-use checks of food
         or funds.

The audit team visited four out of six warehouses: a regional and main warehouse for
one cooperating sponsor and a regional and subgrantee warehouse for the other. The
team inspected storage conditions and assessed whether adequate safeguards were in
place and operating effectively to minimize losses in accordance with the Office of Food
for Peace’s guidelines. The audit found several problems with storage conditions:

Cleanliness. Warehouses were not clean, and some utensils used during food
distribution were in poor sanitary condition. This resulted in signs of infestation at three
warehouses. Certified laboratory reports for food stored at these warehouses confirmed
the presence of live weevils. 13 Additionally, the audit team observed live and dead
weevils, spiders, and flies in open, torn, or damaged food bags.

Further, at the ACDI-VOCA warehouse, open or torn bags were being patched with
adhesive tape instead of the food being repackaged in undamaged containers. If the
food is not repacked into a new bag, the chance of weevils’ reproduction increases,
especially if there is a new source of food. In some cases weevils had easy access to
the improperly repacked bags. This could contribute to the rapid spread of weevil
infestation to commodities stored at the warehouse.




12
   The Commodity Reference Guide (CRG) is an information tool, providing information about the
food commodities used in P.L. 480 Title II program. The CRG is intended to provide descriptions
of available food commodities and general information regarding their safe and effective use to
Title II cooperating sponsors. It is also designed as a reference for USAID Food for Peace
officers, other USAID officers, the staff of cooperating sponsors, and recipient governments and
agencies that are involved in decisionmaking for planning, managing, controlling, and evaluating
appropriate uses of Title II food commodities. Storage specifications and damage control are
addressed in Sections III and IV.
13
   The following cooperating sponsors’ warehouses showed signs of insect infestation at different
levels: ACDI-VOCA, Lira; International Medical Corps, Kitgum; and Mercy Corps, Kitgum.


                                                                                               7
Infested corn soy blend stored at local visited warehouses (Photograph taken by OIG
auditor in March 2010.)

According to the cooperating sponsor, those sacks were removed and were set aside,
while samples were taken and sent for testing. The cooperating sponsor also stated that
the warehouse will now be cleaned daily and food will be inspected for signs of
infestation, and added that training will be given to ensure that warehouse staff complies
with applicable cleanliness requirements. These poor conditions occurred owing to the
cooperating sponsors’ lack of knowledge of how to store and handle the U.S.-financed
commodities. The situation was aggravated by a lack of commodities oversight from the
in-country Food for Peace team.

Fumigation. Two of the four warehouses have not been fumigated in more than 6
months, despite signs of infestation. Specifically:

   •   One warehouse had not been fumigated since August 2009. According to
       cooperating sponsor officials, fumigation did not take place as required because
       of delays in obtaining main office approval. However, a senior cooperating
       sponsor manager stated that a company was selected, but when the company
       was contacted to perform the fumigation, they did not have the required products
       to complete the work. The audit team interviewed the selected company, which
       claimed that it had not yet been instructed to start work.
   •   A subgrantee warehouse had not been fumigated in more than 9 months.
       According to the warehouse manager, the lack of fumigation is because of his
       busy workload and his involvement with the distribution of commodities, which
       left him with no time to coordinate a fumigation date with the selected company.
       Although the regional manager is located in the same village and is responsible
       for all activities and commodities in the area, he said that he was not aware of
       the condition of the food. The regional manager added that he relied on the
       warehouse manager to make sound management decisions, which could have
       prevented this problem.




                                                                                        8
Inventory management practices. The audit team concluded that the shelf life of food
products had been shortened owing to poor storage practices. 14 Food deteriorates
because of both intrinsic and environmental factors, which underscores the importance
of proper processing, packaging, handling, and storing of food products.

Although the elaboration for Principle IV-3 of the Generally Accepted Commodity
Accountability Principles states that cooperating sponsors should practice best methods
of inventory management, such as “first-in, first-out” 15 in order to prevent spoilage, it
adds that warehouse managers must use their judgment and consider other factors such
as the receipt of damaged commodities to control spoilage, infestation, and shelf life in
deciding which stocks to distribute. Additionally, the USAID Commodity Reference
Guide states that as the expiration date is not always noted on the container/bag, the
inventory control methods of "first-in, first-out" should be practiced by those responsible
for managing commodity inventories and distribution at all levels. The audit team noted
the following conditions:

     •   The International Medical Corps warehouse commingled commodities with
         different expiration dates, resulting in at least 60 bags expiring in May 2010
         mixed with others set to expire in July 2011. This is an illustration that proper
         warehouse management practices are not being applied. These practices
         increased the risk that commodities could inadvertently be allowed to expire.
     •   One 16 of the four warehouses visited was not always practicing the first-in, first-
         out method of inventory control.         According to warehouse management,
         unloading food from the trucks required long hours and hard labor, which led
         workers to mix commodities with different expiration dates while trying to make
         sure that all food unloaded from the trucks is stored at the warehouse.

To help reduce the risk of damage and spoilage at cooperating sponsors’ warehouses,
this audit makes the following recommendations:

         Recommendation 6. We recommend that USAID/Uganda, in conjunction
         with its cooperating sponsors, develop and implement a plan of action with a
         timetable to (a) include commodities and warehouse inspections during site
         visits to the warehouses and distribution centers, and correct the weaknesses
         noted; (b) ensure that distribution centers warehouse staffs are aware of the
         USAID Office of Food for Peace storage guidelines; and (c) ensure that
         commodities are regularly inspected, and fumigated when signs of infestation
         are found.

         Recommendation 7. We recommend that USAID/Uganda require its
         cooperating sponsors to develop policies and procedures to inspect
         commodities and warehouses during site visits and to ensure that internal
         transportation, storage, and handling are adequate by local commercial
         standards.


14
    Shelf life refers to the average amount of time a product may be stored without nutritional or
organoleptic (sensory) deterioration.
15
    Under a first-in, first-out system, the first units received in or the oldest units in stock are the
first units issued.
16
   International Medical Corps


                                                                                                      9
Adequate Controls Over
Food Distribution Were
Not Fully Implemented

Principle II-3 of the Generally Accepted Commodity Accountability Principles states that
commodity management organizations should maintain documents and records that
accurately reflect all transactions involved in the receipt and disposition of all
commodities until the commodities are issued for distribution or consumption. In
addition, 22 CFR 211.10(a) requires that cooperating sponsors and recipient agencies
“maintain records and documents in a manner which accurately reflects the operation of
the program and all transactions pertaining to the receipt, storage, distribution, sale,
inspection and use of commodities.”

At two of the six distribution sites visited, which utilize community leaders to coordinate
food distribution, the audit team noted weakness in the control structure over food
distribution. Specifically:

   •   Village committee members were unable to provide copies of waybills for food
       deliveries because cooperating sponsors never gave them a copy. This
       document serves as evidence that the regional warehouse dispatched the food,
       the trucking company delivered it, and the community received it. According to
       cooperating sponsor staff, when food commodities are distributed a community
       committee member must sign a copy of the waybill verifying the amount of food
       received and any food damaged or lost en route. The committee member’s
       signature and retention of the waybill is a control to record what amount of food
       was actually delivered to the community, what amount was lost, and what
       amount was damaged.
   •   Community leaders stated that they were unable to verify their respective
       distribution lists during delivery because they were not provided with an advance
       copy. Although distribution teams had the distribution list on site, this list
       contained information that was incorrect. For example, women were listed as
       being pregnant even though they had delivered their babies months prior. The
       distribution list should help ensure that the program is feeding the targeted
       population.

These weaknesses occurred because the cooperating sponsor management did not
ensure that subgrantees understood the distribution process and the importance of
maintaining proper documentation at every level.

Because adequate documentation was not maintained at distribution sites, commodities
were at greater risk of loss due to fraud or waste. To help minimize the risk of loss
during distribution, this audit makes the following recommendations:

   Recommendation 8.           We recommend that USAID/Uganda direct the
   cooperating sponsor to develop a list of documents to be retained at the
   distribution site and require that this documentation be verified during
   postdistribution monitoring visits.




                                                                                        10
     Recommendation 9. We recommend that USAID/Uganda document and verify
     that its cooperating sponsors (a) have developed a complete beneficiary
     database and are using it to print lists of eligible beneficiaries prior to each
     distribution, (b) review the eligibility of each beneficiary monthly, and (c) have
     developed and implemented written procedures for food distribution.

Some Food Aid Recipients Were
Outside Targeted Population
Food distributed as part of Food for Peace programs is intended to reach the people
most vulnerable to the effects of hunger: children under the age of 5, pregnant women,
the elderly, and the poorest families in the community. In each country, programs are
designed to specifically target one or more of these populations.

However, the audit noted that some food aid recipients were outside of the targeted
population. For example, one program defined the targeted population as malnourished
children (maximum age of 59 months) for no longer than 6 months; 17 and lactating
women (until their child reached 6 months). However, in one of two distribution centers
visited (out of 14 in the program), 39 women (49 percent) who were receiving food
because they were lactating did not actually qualify for the food because they were
either pregnant or their children were older than 6 months. 18

This occurred because USAID/Uganda’s cooperating sponsors’ planning documents did
not include appropriate criteria for beneficiaries and disbursements did not occur as
reported to USAID. 19 For example:

     •   Despite being approved by USAID/Washington, a cooperating sponsor’s
         implementation plan did not establish a time limit for beneficiaries to be classified
         as vulnerable.
     •   A subagreement signed between a USAID/Uganda cooperating sponsor and its
         subgrantee for the Healthy Practices, Strong Communities Program did not
         outline the specific criteria of individuals to be fed under the food aid assistance
         program.
     •   A cooperating sponsor subgrantee distribution list showed 32 women as
         pregnant. However, data verification and observation revealed that 24 of them
         (75 percent) had already delivered their babies.

Each distribution center is allocated a set amount of food rations. Therefore, when
rations are distributed to individuals outside of the targeted population, it is done at the
expense of the intended beneficiaries. The audit makes the following recommendation
to address this situation:


17
   Children can be disenrolled if they fail to respond to supplementary feeding after 3 months of
food rations.
18
   Pregnant women were eligible to receive rations until December 2009, when this was changed
to discourage food aid from being an incentive to pregnancy.
19
   In accordance with Generally Accepted Commodity Accountability Principle IV-5, agreements
between cooperating sponsors and donors should specify how commodities are to be used and
for what purposes. This guidance also states that periodic checks should be performed to ensure
that disbursements have happened as planned and reported.


                                                                                              11
   Recommendation 10. We recommend that USAID/Uganda revise agreements
   with cooperating sponsors in order to provide precise definitions of the targeted
   population and the criteria to follow in order to be part of the food aid program—
   specifically, to identify the allowable time for malnourished children and pregnant
   and lactating women to be in the food program.

Effectiveness of USAID Branding
Needs to Be Improved
Ensuring that the American people are appropriately recognized for their generosity in
funding U.S. foreign assistance has been a long-standing U.S. Government objective.
For example, section 641 of USAID’s framework legislation, the Foreign Assistance Act
of 1961, codified as amended in 22 U.S.C. 2401, specifies that all programs under the
act be identified appropriately overseas as “American Aid.” More recently, the United
States’ post–September 11 national security strategy increased the need for U.S. foreign
assistance activities to be more fully identified in host countries as being provided by the
United States.

To help ensure that U.S. foreign assistance is recognized as such, ADS 320.3.4.5
requires that commodities funded under the Food for Peace program be marked in
accordance with 22 CFR 211. In addition, 22 CFR 211.5(h) states that to the maximum
extent practicable, and with the cooperation of the host government, adequate public
recognition shall be given in the press, by radio, and other media that the commodities
or assistance financed by monetized proceeds or program income have been provided
through the friendship of the American people as Food for Peace. At distribution and
feeding centers or other project sites the cooperating sponsor shall, to the extent
feasible and unless otherwise specified, display banners, posters, or similar media which
shall contain the USAID emblem, commodity names, and language to reflect that
commodities are provided through the friendship of the American people as Food for
Peace and are not to be sold or exchanged (where applicable).

Despite the importance of identifying USAID activities as being provided by the United
States, 96 of 152 people interviewed at several of the food distribution sites in northern
Uganda did not know that the food was funded by the American people. Moreover,
these interviews typically attracted a number of onlookers, and our questions regarding
funding were addressed to these small gatherings. Even when audit team members
asked respondents if they knew which foreign country was funding the food program,
none mentioned the United States.

The mission’s current branding strategy for its food program activities relies on a few
main approaches: commodities bags being branded with the USAID logo, signage
placed in banners displayed at the distributions sites, and the USAID and cooperating
sponsor logo displayed on beneficiaries’ food cards.




                                                                                         12
Sample identification cards used by cooperating sponsors.
(Samples provided by cooperating sponsor’s management in March 2010.)

However, both of these approaches were ineffective. None of the respondents gave any
indication that they paid attention to the branding signs. Although the signs contained
the USAID logo and brand name, within an illiterate environment viewers may not be
aware of the logo’s meaning.

The ineffectiveness of the current branding strategy means that people in Northern
Uganda are generally not aware that the food aid program is being funded by the
American people. Consequently, opportunities to create positive impressions of the
United States are forfeited, hindering public diplomacy efforts in Uganda. As a result,
this audit makes the following recommendation:

   Recommendation 11: We recommend that the USAID Office of Food for Peace
   revise its branding strategy for the P.L. 480 Title II nonemergency food aid
   program in Uganda to focus more on direct communication with project
   beneficiaries.




                                                                                    13
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Uganda and the USAID Office of Food for Peace
in Washington, DC agreed with all eleven recommendations. Management decisions
were reached on Recommendations 1–10, with final action taken on Recommendations
3, 5, 6, 8, and 9. Recommendation 11 remains without a management decision. The
mission’s comments are included in their entirety as appendix II (without attachments),
and our evaluation of those comments is summarized below.

For Recommendation 1, the audit recommended that the mission and the USAID Office
of Food for Peace in Washington, DC collaborate on a document that formally outlines
the responsibilities and authorities of the mission’s Food for Peace project managers.
The USAID Office of Food for Peace in Washington, DC stated that it has drafted
reporting guidance for field officers as well as documents outlining the roles and
responsibilities of agreement officer’s technical representatives and other Food for
Peace staff. Finalization of these documents is expected by December 31, 2010.
Accordingly, a management decision has been reached on Recommendation 1.

For Recommendation 2, the audit recommended that the mission establish written
procedures to ensure that site visits provide for data quality testing and adequate
documentation of the test results and provide training to mission staff on those
procedures. In response, USAID/Uganda and the USAID Office of Food for Peace in
Washington, DC stated that it has taken action to improve the ability of USAID/Uganda
Food for Peace Staff to monitor activities, assess performance, and document results.
Specifically, the mission has adopted new information technology tools to collect
quantifiable data on program activities and has provided mission Food for Peace staff
and Food for Peace awardees with relevant training. Most significantly, the proposed
Layers application utilizes mission Food for Peace staff to analyze data from randomly
sampled sites to monitor program quality. In our opinion, the Layers training program
and its computer capabilities meet the intent of the recommendation for “written
procedures” and “adequate documentation” regarding data quality. Training on the
Layers application is scheduled to be completed by March 2011. As a result, a
management decision has been reached on Recommendation 2.

For Recommendation 3, the audit recommended that the mission correct the problems
identified in the August 2009 data quality assessment of its P.L. 480 Title II program. To
address the identified problem of double-counting some households that benefitted from
two Mercy Corps activities, the mission stated that Mercy Corps created a database of
beneficiaries, tracked by household, with clear identification of households benefitting
from more than one Mercy Corps activity. The other problem disclosed in the August
2009 data quality assessment, the need for dedicated monitoring and evaluation
personnel, was addressed prior to the audit by hiring a full-time monitoring and
evaluation person, as discussed on page 7 of the report. Furthermore, USAID/Uganda
stated that it supported a workshop to review the 2009 data quality assessment and
conduct related training. Based on management’s comments and the supporting




                                                                                       14
documentation provided, a management decision has been reached and final action
taken on Recommendation 3.

For Recommendation 4, the audit recommended that the mission conduct a follow-up
data quality assessment of its P.L. 480 Title II program. USAID/Uganda stated that
follow-up data quality assessments are scheduled in October and December 2010 for
the mission’s two awardees. Accordingly, a management decision has been reached
on Recommendation 4.

For Recommendation 5, the audit recommended that the mission conduct training on
data quality assessment for the implementing partner and sub-partner to define how
data should be collected for its P.L. 480 program. The mission stated that it provided
such training for its two awardees in July 2010. Based on management’s comments and
the supporting documentation provided, a management decision has been reached and
final action taken on Recommendation 5.

For Recommendation 6, the audit recommended that the mission, in coordination with its
cooperating sponsor, develop and implement a plan of action with a timetable to (a)
include commodities and warehouse inspections during site visits to the warehouses and
distribution centers, and correct the weaknesses noted; (b) ensure that distribution
centers warehouse staffs are aware of the USAID Office of Food for Peace storage
guidelines; and (c) ensure that the commodities are regularly inspected, and fumigated
when signs of infestation are found. In its response to part (a), the mission developed a
comprehensive Warehouse Inspection Checklist and a Distribution Site Checklist. Both
checklists were finalized in October 2010 and will be incorporated into the mission’s new
information technology tool for monitoring the quality of awardee operations by March
2011. USAID/Uganda stated that mission Food for Peace staff will also conduct
unannounced warehouse visits, at least on a quarterly basis, to complement regularly
scheduled warehouse visits. In response to part (b), in October 2010 mission staff and
awardees reviewed storage guidelines, best practices, and local standards for
management of commodities during transportation and warehousing, and the mission
provided refresher training on best practices. Among the best practices agreed on was
to develop an action plan for use in the case of infestation. This plan has now been
posted in all warehouses. In response to part (c), following termination of a sub-grant in
May 2010, awardees now have direct control of warehouses, ensuring their regular
inspection, and when needed, fumigation. Awardee warehouse management staff is
now held responsible for weekly warehouse inspections for cleanliness and signs of
infestation, and the mission stated that awardee program management staff now verifies
the weekly inspections as part of monthly warehouse visits. Based on management’s
comments and the supporting documentation provided, a management decision has
been reached and final action taken on Recommendation 6.

For Recommendation 7, the audit recommended that the mission require its cooperating
sponsors to develop policies and procedures to inspect commodities and warehouses
during site visits and to ensure that internal transportation, storage, and handling are
adequate by local commercial standards.         In response, the mission stated that a
number of steps have been taken to address this recommendation, resulting in the
awardees having improved policies and procedures for commodity management, such
as Mercy Corps’ deployment of a full-time commodity management specialist. The
mission’s response also covered discussing best practices and local standards with
awardees in September 2010 and holding awardee warehouse management


                                                                                       15
responsible for weekly warehouse inspections. Furthermore, as stated by the mission,
in fiscal year (FY) 2011 the mission’s new information technology tool for monitoring the
quality of awardee operations will assess awardees’ performance in commodity
management.         Accordingly, a management decision has been reached on
Recommendation 7.

For Recommendation 8, the audit recommended that the mission direct the cooperating
sponsor to develop a list of documents to be retained at the distribution site and require
that this documentation be verified during postdistribution monitoring visits. The mission
stated that awardees have been directed to ensure that waybills, dispatch notes, and
recipient lists will remain at the distribution sites. According to the documentation
provided, this was accomplished at a Food for Peace best practices workshop held in
October 2010. The workshop also discussed mechanisms for both cooperating
sponsors to confirm beneficiaries and food delivery. Furthermore, the mission stated
that USAID/Uganda Food for Peace staff will verify availability of the documents during
distribution and postdistribution monitoring visits. However, the draft document outlining
roles and responsibilities of mission-based Food for Peace staff (attachment 3 in its
response) does not list document verification as a mission-based Food for Peace staff
responsibility.   Notwithstanding this omission, management’s comments and the
supporting documentation provided are sufficient to meet the intent of the
recommendation. As a result, a management decision has been reached and final
action taken on Recommendation 8.

For Recommendation 9, the audit recommended that the mission document and verify
that its cooperating sponsors (a) have developed a complete beneficiary database and
are using it to print lists of eligible beneficiaries prior to each distribution, (b) review the
eligibility of each beneficiary monthly, and (c) have developed and implemented written
procedures for food distribution. In response to part (a), the mission stated that it has
worked with its awardees to ensure that they now have a complete database of
beneficiaries and review the list of eligible beneficiaries prior to each distribution. In
response to part (b), the mission stated that awardees distribute ration cards to
beneficiaries that specifically limit the months of eligibility. According to the mission,
beneficiaries are reviewed each month by the awardees and by community leaders. In
response to part (c), the mission stated that awardees have developed or updated
written food distribution procedures that will be available to community leaders and
beneficiaries upon approval. Based on management’s comments and the supporting
documentation provided, a management decision has been reached and final action
taken on Recommendation 9.

For Recommendation 10, the audit recommended that the mission revise agreements
with cooperating sponsors in order to provide precise definitions of the targeted
population and identify the allowable time for malnourished children and pregnant and
lactating women to be in the food program. The mission responded that the USAID
Office of Food for Peace in Washington, DC, is in the process of revising agreements
with awardees to define target populations. The mission stated that it will establish exact
targeting and eligibility criteria and incorporate them into cooperative agreements by
December 31, 2010. Accordingly, a management decision has been reached on
Recommendation 10.

For Recommendation 11, the audit recommended that the mission revise its branding
strategy for the P.L. 480 Title II nonemergency food aid program in Uganda to focus


                                                                                             16
more on direct communication with project beneficiaries. The mission stated that, in
consultation with awardees and mission staff, the USAID Office of Food for Peace in
Washington, DC will review the branding strategy and marking plan in accordance with
new FY 2011 planning procedures. Updates, if necessary, will be completed by
December 31, 2010. However, the mission’s response does not specifically address
what changes, if any, will be made to focus more on direct communication with project
beneficiaries. Consequently, a management decision has not been reached on
Recommendation 11.




                                                                                  17
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit in accordance with generally
accepted Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. This objective is to
determine whether selected USAID/Uganda’s Title II nonemergency food aid assistance
activities achieved their main goals of decreasing food insecurity and increasing
resiliency. We believe that the evidence obtained provides that reasonable basis. Audit
fieldwork was conducted from February 16 to March 12, 2010, and covered fiscal years
(FYs) 2008 and 2009.

In planning and performing the audit, the audit team assessed management controls
related to management review, proper execution of transactions and events, and review of
performance measures and indicators. Specifically, we studied and reviewed the following:

      •   FY 2008 and 2009 country operational plans
      •   FY 2008 and 2009 performance management plans
      •   Cooperating sponsors’ agreements
      •   Cooperating sponsors’ quarterly and annual progress reports
      •   Performance measures
      •   Target and actual performance results
      •   Site visit reports
      •   Project beneficiary records and documents

We also interviewed key USAID/Uganda personnel, cooperating sponsors, beneficiaries,
and Ugandan local government officials. We conducted the audit at USAID/Uganda and
at the activity sites of the two major cooperating sponsors.

As of March 2010, USAID/Uganda’s P.L. 480 nonemergency food aid program had
agreements with two cooperating sponsors. The audit focused on both agreements with
a total obligation of $34.6 million, 20 which represent 30 percent of the $115.5 million in
total funds for the USAID/Uganda P.L. 480 nonemergency food program.

Methodology
To answer the objective, the Regional Inspector General/Pretoria (RIG/Pretoria)
interviewed USAID/Uganda mission and cooperating sponsors’ officials to gain an
understanding of the mission’s food security activities, as well as to identify the key
performance indicators used to measure the contribution of those activities toward
meeting the main goals of decreasing food insecurity and increasing resiliency.

RIG/Pretoria examined claims and assertions made in USAID/Uganda’s Full
Performance Plan and Report for the fiscal year ended September 30, 2009, under

20
     Project obligated funds as of December 2009.


                                                                                        18
                                                                                 APPENDIX I


“Food Security” via the Foreign Assistance Coordination and Tracking System.
RIG/Pretoria, with the input from cooperating sponsors and program management, used
judgmental sampling to test numerical assertions regarding reported beneficiaries of the
mission’s food security activities. We used this method because it was the most
effective and efficient given the amount of resources available for the audit.

The mission and cooperating sponsor considered 11 performance indicators as key
indicators that reflect the results from the program. However, 9 of the 11 performance
indicators are baseline indicators, which are measured at the beginning, midpoint, and
the end of the program. As a result, the audit team could not make a determination on
impact because of the lack of sufficient data to reach a conclusion. Further, backup data
on reported indicators by one cooperative sponsor were not available. Cooperating
sponsors added that because the data are collected and analyzed by a private firm, they
do not have the relevant documentation for the reported data. In addition, the audit
noted a significant problem with the reliability of reported data, 21 and as a result it could
not use the information to measure results.

We also examined the indicator performance tracking tables. We interviewed the
cooperating sponsors’ monitoring and evaluation specialists to determine how
performance targets were set and how performance results were obtained. As part of
this process, we gained an understanding of the data that are annually reported to the
mission. We developed procedures to test the data’s validity and reliability. We also
conducted site visits in two of four northern Uganda districts where programs are
implemented to verify the existence of program activities.

We performed site visits at:

      •   Two out of four districts with program activities (Lira and Kitgum)
      •   Four out of six program warehouses (two for ACDI-VOCA and two for Mercy
          Corps)
      •   Four out of 19 ACDI-VOCA food distribution activities in the Lira District
      •   Two out of 14 Mercy Corps food distribution activities in the Kitgum District

During these site visits, we observed food distribution activities in progress, interviewed
individuals who were conducting the activities, and interviewed program beneficiaries.
Because of the large number of activities and the extensive geographical dispersion of
the sites, a statistical sample was not possible. Therefore, a judgmental sample was
selected based on available audit resources and the monthly food distribution schedule
for both cooperating sponsors. This resulted in the selection of 6 out of 33 distribution
sites (4 in Lira and 2 in Kitgum).

Even though site selection was mandated by cooperating sponsors’ monthly food
distribution schedules, the audit team was able to select a random sample of 162 out of
602 beneficiaries at those sites. The results of the sample cannot be projected to the
universe of all food activities; however, the team was able to interview 152 22 (93 percent)
of program beneficiaries and was reasonably confident that these 152 beneficiaries
received food aid in FY 2009.


21
     Some data from cooperating sponsors showed problems with data quality assessment.
22
     The remaining 10 beneficiaries were unavailable for various reasons.


                                                                                           19
                                                                        APPENDIX I


Finally, we reviewed documents as part of our audit procedures. These included
excerpts from USAID/Uganda’s annual report for the fiscal year ended September 30,
2009, the agreement with cooperating sponsors and all modifications, and the
cooperating sponsors’ monitoring and evaluation plan. We also utilized the Government
Accountability Office’s Standards for Internal Control in the Federal Government; 23
Office of Management and Budget Circular A-122, “Cost Principles for Non-Profit
Organizations”; and USAID’s Automated Directives System Chapters 200–203 in
developing criteria for findings under the audit objective.




23
     GAO/AIMD-00-21.3.1 (11/99).


                                                                                  20
                                                                         APPENDIX II



MANAGEMENT COMMENTS


October 17, 2010

MEMORANDUM

TO:           Regional Inspector General/Pretoria, Christine M. Byrne

FROM:         USAID/Office of Food for Peace Acting Director, Jonathan Dworken /s/
              USAID/Uganda Mission Director, David Eckerson /s/

SUBJECT:      Management Responses to RIG/Pretoria Draft Report on the Audit of
              Selected USAID/Uganda’s P.L. 480 Title II Program Activities
              (Report Number 4-617-10-XXX-P)

On September 17, 2010, the Office of Food for Peace in Washington (FFP/W) and
USAID/Uganda received the draft report on the above-referenced audit. The draft audit
report contains eleven recommendations. The purpose of this memorandum is to
provide management responses and closure on each of the eleven recommendations.

Recommendation 1: We recommend that USAID/Uganda, in conjunction with the
Office of Food for Peace in Washington, DC, create a document that formally
outlines the responsibilities and authorities of the USAID/Uganda Food for Peace
project managers.

Response to Recommendation 1: FFP/W and USAID/Uganda agree with the
recommendation. FFP/W has drafted Reporting Guidance for Food for Peace
Officers to increase and improve oversight of all Title II programs. FFP/W will
finalize this guidance, with field input, by the end of Calendar Year 2010 (see
Attachment 1; Reporting Guidance for FFP Officers).

In addition, FFP/W has drafted documents outlining the roles and responsibilities of
the Agreement Officer’s Technical Representative (AOTR), Mission-based Food for
Peace (FFP) staff, and regional FFP staff. These drafts have been circulated for
comment to Food for Peace staff worldwide, with finalization expected by the end of
calendar year 2010 (see Attachments 2; AOTR CBO Responsibilities: Attachment 3;
Mission FFP Staff Responsibilities: and Attachment 4; Regional FFPO Roles and
Responsibilities).

With the above response, FFP/W and USAID/Uganda consider Recommendation 1 fully
addressed and closed.




                                                                                     21
                                                                                APPENDIX II


Recommendation 2: We recommend that USAID/Uganda establish written
procedures to ensure that site visits provide for data quality testing and adequate
documentation of the test results and provide training to mission staff on those
procedures.

Response to Recommendation 2: FFP/W and USAID/Uganda agree with the
recommendation. FFP/W and USAID/Uganda have taken action to improve the ability of
USAID/Uganda FFP staff to monitor activities, assess performance, and document
results.

The USAID/Uganda FFP Office has adopted new information technology tools to collect
quantifiable data on program activities. The Quarterly Web Interfaced Commodity
Reporting program (QWICR) will improve collection, verification, and analysis of
quantifiable commodity management data. The Layers monitoring system (as described
below) will collect, analyze, and report quantifiable data on the quality of implementation
of awardees’ 24 programs. USAID/Uganda FFP staff has been trained in the use of
QWICR and are participating in the rollout of the Layers system.

With the launch of the QWICR commodity tracking system, awardees enter commodity
management data into a web-based system. USAID/Uganda FFP staff can more easily
review commodity status reports on the movement of food aid commodities. QWICR
training for all USAID/Uganda FFP staff, and FFP awardees in Uganda, occurred on July
29 and 30, 2010. The training included data entry by awardees, and report retrieval by
USAID/Uganda FFP. QWICR is now operational in Uganda (see Attachment 5; QWICR
Commodities Status Reports).

In Fiscal Year 2011, USAID/Uganda FFP staff will begin using Layers to assess the
implementation quality of awardee operations. Layers is a software application that
facilitates the monitoring of food aid programs in the field, using hand-held computers to
collect and analyze program information from a random sample of program sites.
Enumerators electronically enter yes-no responses to each item on an electronic
checklist specific to the activity type of the site being visited. Layers analyzes the
entered data to generate a report on the quality of implementation of the Title II program.

Consultations in support of Layers implementation began in June of 2009. In July of
2010, a local partner was contracted and trained. The consultation with awardees and
preparation of the questionnaires took place from October 4-15, 2010. Training of
enumerators and USAID/Uganda FFP staff, and the survey, is now planned for February
and March of 2011 (see Attachment 6; Layers Technical Support Mission Agenda)

The USAID/Uganda FFP specialist responsible for verification of submitted data
participated in the DQA Refresher Training in March of 2010 and the DQA review
workshop with Mercy Corps in July 2010. She will participate in Data Quality
Assessments (DQA) scheduled for both FFP awardees in the final quarter of 2010
(Mercy Corps, October 18 to 21, 2010; ACDI/VOCA, December 6 to 10, 2010).

Finally, two USAID/Uganda FFP staff and the FFP/W AOTR for Uganda are scheduled

24
  Although referenced as “cooperating sponsors” in the current version of Reg. 11, FFP has
adopted the terms “awardees” or “implementing partners” to refer to grantees as these terms are
used in the rest of USAID.


                                                                                            22
                                                                             APPENDIX II


to attend the FFP Field Officer Assessment and Program Monitoring Skills Training in
Ethiopia from November 29 to December 10, 2010 (see Attachment 7; FFP Field
Officers Training, course description).

With the above response, FFP/W and USAID/Uganda consider Recommendation 2 fully
addressed and closed.

Recommendation 3: We recommend that USAID/Uganda correct the problems
identified in the August 2009 data quality assessment of its P.L. 480 Title II
program.

Response to Recommendation 3: FFP/W and USAID/Uganda agree with the
recommendation. The data quality issue identified in the August 2009 data quality
assessments of Mercy Corps data, i.e., the double-counting of some households which
benefitted from two MC activities, has been corrected. In July 2010 USAID/Uganda
monitoring and evaluation (M&E) contractor UMEMS 25 held a workshop to review the
2009 Mercy Corps Data Quality Assessment, to conduct a DQA training, and to better
define/refine data collection for program activities. As recommended by the 2009 DQA,
Mercy Corps created a database of beneficiaries, tracked by household, with clear
identification of households benefiting from more than one MC activity. This has
eliminated double-counting of households in data reporting (see Attachment 8: MC List
of Beneficiaries, excerpt).

With the above response, FFP/W and USAID/Uganda consider Recommendation 3 fully
addressed and closed.

Recommendation 4: We recommend that USAID/Uganda conduct a follow-up
data quality assessment of its P.L. 480 Title II program.

Response to Recommendation 4: FFP/W and USAID/Uganda agree with the
recommendation. In July 2010, USAID/Uganda, through its M&E contract, UMEMS,
conducted DQA training for its two awardees, ACDI/VOCA and Mercy Corps, to
define/refine how data should be collected for program activities. Subsequently, USAID/
Uganda scheduled follow-up DQAs for Mercy Corps in October 2010 and for
ACDI/VOCA in December 2010. USAID/Uganda will act on any 2010 DQA findings or
recommendation, expected in November and December, respectively (see Attachment
9; UMEMS DQA Training).

With the above response, FFP/W and USAID/Uganda consider Recommendation 4 fully
addressed and closed.

Recommendation 5: We recommend that USAID/Uganda conduct a training on
data quality assessment for the implementing partner and sub-partner to
define how data should be collected for its P.L. 480 Title II program.

Response to Recommendation 5: FFP/W and USAID/Uganda agree with the
recommendation. In July 2010, USAID/Uganda, through its M&E contract, UMEMS,

25
  In May 2008, The Mitchell Group, Inc. was awarded a four-year contract by USAID/Uganda to
design and implement UMEMS, a comprehensive performance management, monitoring and
reporting program.


                                                                                        23
                                                                            APPENDIX II


conducted DQA training for its two awardees, ACDI/VOCA and Mercy Corps, to define
how data should be collected for program activities. Through the development and use
of a database of Mercy Corps beneficiaries, the short-coming identified by the DQA, i.e.,
double-counting of some beneficiary households, has been addressed.

USAID/Uganda conducts annual DQAs for implementing partners. The annual DQA for
Mercy Corps is scheduled for October 18 to 20, 2010, and for ACDI/VOCA, December 6
to 10, 2010. DQA reports are due in November and December, respectively. USAID/
Uganda will act on any findings or recommendation from the 2010 DQAs.

With the above response, FFP/W and USAID/Uganda consider Recommendation 5 fully
addressed and closed.

Recommendation 6: We recommend that USAID/Uganda, in conjunction
with its cooperating sponsor, develop and implement a plan of action
with a timetable to (a) include commodities and warehouse inspections
during site visits to the warehouses and distribution centers, and
correct the weaknesses noted; (b) ensure that distribution centers
warehouse staffs are aware of the USAID Office of Food for Peace
storage guidelines; and (c) ensure that commodities are regularly
inspected, and fumigated when signs of infestation are found.

Response to Recommendation 6(a): FFP/W and USAID/Uganda agree with the
recommendation. In response to the initial audit and the out-briefing of the auditors, in
April 2010, USAID/Uganda FFP staff developed, and continues to update, a
comprehensive Warehouse Inspection Checklist for use during warehouse visits (see
Attachment 10; Warehouse Inspection Checklist). In conjunction with the
implementation of Layers, a Distribution Site Checklist has also been developed. Layers
will incorporate both the Warehouse and the Distribution Site Inspection Checklists when
the survey takes place in February/March of 2011. As part of the October 2010 Layers
technical assistance mission, both checklists were shared and finalized with awardees
(see Attachment 11; Layers Distribution Site Checklist, in draft).

To enhance USAID/Uganda FFP capacity for commodity monitoring, the Nairobi-based
FFP Regional Commodity Management Specialist visited from September 13 to 17,
2010, and assessed all warehouses with USAID/Uganda FFP staff. FFP staff reviewed
the results with awardees following the visits. USAID/Uganda FFP will continue to
conduct unannounced warehouses visits, at least on a quarterly basis. These random
visits will complement warehouse visits scheduled under the Layers system, described
above (see Attachment 12; FFP RCMS Trip Report).

Finally, with the termination of the IMC sub-grant, both awardees now have direct control
of warehouses and distribution activities (see Attachment 13: IMC Termination Letter).

Response to Recommendation 6(b): FFP/W and USAID/Uganda agree with the
recommendation. USAID/Uganda FFP staff reviewed storage guidelines, best practices,
and local standards for management of commodities during transportation and
warehousing with both awardees on October 8, 2010.

Among the practices agreed, refresher training on best practices is scheduled for end of


                                                                                       24
                                                                            APPENDIX II


October 2010. All bags with a damaged outer liner are inserted as a whole into a
reconstitution bag. Warehouses are inspected weekly for cleanliness and infestation.
An action plan, should infestation be noted, has been developed and posted in all
warehouses. To speed fumigation, Mercy Corps has developed a list of preferred
suppliers; procurement for fumigation was pre-competed and is valid for one year.
Fumigation now occurs within one week. Mercy Corps also implements quarterly
fumigation. Program management staff from both awardees now inspects warehouses
regularly, at least monthly. There is improved commodity pipeline analysis to reduce
storage times. MC has consolidated warehousing, which leads to better management.
Finally, MC has engaged full–time, an experienced expatriate commodity management
specialist in Kitgum (see Attachment 14; Best Practices Workshop notes).

As discussed in 6(a) above, USAID/Uganda FFP staff was trained during the September
visit of the Nairobi-based Regional Commodity Management Specialist, to improve their
ability to assess commodity management and monitor use of best practices by
awardees.

Response to Recommendation 6(c): FFP/W and USAID Uganda agree with the
recommendation. Awardee warehouse management staff is now held responsible for
weekly warehouse inspections for cleanliness and signs of infestation. On inspection,
staff signs a checklist, posted in the warehouse. Awardee program management staff
verifies this action as part of monthly warehouse visits (see Attachment 15; inspection
signature cards).

Fumigation, when required, is more immediate; FFP awardees have expedited
fumigation by streamlining procurement, and establishing closer communication and
planning with pre-approved fumigation companies. ACDI has created an Infestation
Action Plan, posted next to the signature cards, outlining the required response when
infestation is identified (see Attachment 16; Infestation Action Plan). USAID/Uganda
FFP staff visually confirmed fumigations taking place in Mercy Corps and ACDI/VOCA
warehouses during the September 2010 visits (see Attachment 17; list of fumigations).

Most significantly, in May 2010, Mercy Corps terminated its sub-grant with IMC, in part
because IMC showed serious deficiencies in storage and handling procedures. Both
awardees now have direct control of warehouses, ensuring regular inspection and, when
needed, fumigation (see Attachment 13; IMC Termination Letter).

With the above responses, FFP/W and USAID/Uganda consider Recommendation 6
fully addressed and closed.

Recommendation 7: We recommend that USAID/Uganda require its cooperating
sponsors to develop policies and procedures to inspect commodities and
warehouses during site visits and to ensure that internal transportation, storage,
and handling are adequate by local commercial standards.

Response to Recommendation 7: FFP/W and USAID/Uganda agree with the
recommendation. This recommendation has been addressed through a number of steps;
awardees now have improved policies, procedures and control for commodity
management, and USAID/Uganda FFP staff has enhanced tools and abilities for
monitoring:



                                                                                          25
                                                                                 APPENDIX II


1.       In May 2010, Mercy Corps terminated its sub-grant with IMC, which was not ensuring
     that internal transportation, storage, and handling were adequate by local commercial
     standards. Mercy Corps now directly manages all of the warehouses and all program
     activities under its FFP cooperative agreement.
2.      Following the RIG audit, Mercy Corps deployed a full–time, experienced expatriate
     commodity management specialist to update Mercy Corps’ processes and procedures,
     consolidate the Mercy Corps and IMC commodity operations under Mercy Corps’
     control, and train Mercy Corps staff in best practices for commodity management.
3.       As discussed in Reponses 6(c) above, awardee warehouse management is now
     held responsible for weekly warehouse inspections for cleanliness and signs of
     infestation. On inspection, staff signs a checklist, posted in the warehouse. Awardee
     program management staff verifies this action as part of monthly warehouse visits (see
     Attachment 15; inspection signature cards).
4.       From September 13 to 17, 2010, the FFP Nairobi-based Regional Commodity
     Management Specialist and USAID/Uganda FFP staff reviewed with the awardees best
     practices and local standards for management of commodities during transportation and
     at the warehouses. Response 6(b) above discusses improved transportation, storage
     and handling practices agreed in the October 8 follow-up workshop.
5.        As noted in Response 6(a), USAID/Uganda FFP staff has developed a checklist to
     guide assessment of commodity management in warehouses. These unannounced
     visits, conducted no less than quarterly, will reinforce the use of best commodity
     management practices. The checklists, and the results of visits, are shared with
     awardees.
6.       Finally, in Fiscal Year 2011, USAID/Uganda will begin using Layers (described in
     Response 2 above) to assess the implementation quality of awardee operations at
     commodity warehouses. Layers will generate an automated report, provided to partners,
     that reflects their performance in commodity management.

     With the above response, FFP/W and USAID/Uganda consider Recommendation 7 fully
     addressed and closed.

     Recommendation 8: We recommend that USAID/Uganda direct the cooperating
     sponsor to develop a list of documents to be retained at the distribution site and
     require that this documentation be verified during post-distribution monitoring
     visits.

     Response to Recommendation 8: FFP/W and USAID/Uganda agree with the
     recommendation. Documents are now provided at distribution sites that allow
     verification of beneficiaries and distributed commodities. Waybills and dispatch notes
     that indicate the total quantity of food commodities delivered to the distribution site
     remain at the distribution sites and in the partner offices. Recipient lists, stipulating
     beneficiaries, rations and timing, are provided to community leaders (except in the case
     of People Living with HIV/AIDS, where a guarantee of confidentiality would be violated
     by a release of beneficiary lists).
     Mercy Corps has engaged food distribution monitors to ensure requested food quantities
     are delivered. ACDI/VOCA works with The Aids Support Organization (TASO) to
     confirm beneficiaries and ensure delivery. All documents are available from the
     awardee upon request (see Attachment 14; Best Practices Workshop Notes).


                                                                                            26
                                                                               APPENDIX II



USAID/Uganda FFP staff will verify that the above documents are available to
community leaders during distribution and post distribution monitoring visits.

With the above response, FFP/W and USAID/Uganda consider Recommendation 8 fully
addressed and closed.

Recommendation 9: We recommend that USAID/Uganda document and verify
that its cooperating sponsors (a) have developed a complete beneficiary database
and are using it to print lists of eligible beneficiaries prior to each distribution, (b)
review the eligibility of each beneficiary monthly, and (c) have developed and
implemented written procedures for food distribution.

Response to Recommendation 9(a): FFP/W and USAID/Uganda agree with the
recommendation. As noted in the Response to Recommendation 3, USAID/Uganda
FFP has worked with its awardees to ensure that they now have a complete
database of beneficiaries and use the database to print a list of eligible beneficiaries
prior to each distribution (see Attachments 18; Sample Distribution Lists).

Response to Recommendation 9(b): FFP/W and USAID/Uganda agree with the
recommendation. Mercy Corps has Ration Cards for beneficiaries that specifically
limit the months of eligibility. Children 6-59 months in the supplementary feeding
program are limited to three visits (months); pregnant women are limited to three
visits (three months of the final trimester); and lactating women are limited to six
visits, once delivery is confirmed (see Attachment 19; Beneficiary Cards).

When appropriate (see response 8(c)), the awardees now provide a list of the
targeted beneficiaries to the community representative in advance of the distribution.
Beneficiaries are reviewed each month by the awardees and by community leaders
for eligibility.

Response to Recommendation 9(c): FFP/W and USAID/Uganda agree with the
recommendation. Awardees have developed/updated written procedures for food
distribution, which they will distribute to and review with staff by the end of 2010.
The procedures are available for community leaders and beneficiaries (see
Attachment 20; Distribution Procedures).

With the above responses, FFP/W and USAID/Uganda consider Recommendation 9
fully addressed and closed.

Recommendation 10: We recommend that USAID/Uganda revise agreements
with cooperating sponsors in order to provide precise definitions of the
targeted population and the criteria to follow in order to be part of the food aid
program—specifically, to identify the allowable time for malnourished children
and pregnant and lactating women to be in the food program.

Response to Recommendation 10: FFP/W and USAID/Uganda agree with the
recommendation. FFP/W is in the process of revising agreements with awardees to
define target populations. As part of the Fiscal Year 2011 Pipeline Resource and
Estimate Proposal (PREP), on September 30, 2010, the FFP/W AOTR requested that
awardees formally submit their exact targeting/eligibility criteria. The criteria will be


                                                                                            27
                                                                               APPENDIX II


reviewed as part of the PREP and, when acceptable, approved and incorporated into the
cooperative agreement (see Attachment 21; AOTR Criteria Request Letter).

Once approved and incorporated into the cooperative agreement, USAID/Uganda
FFP staff will monitor correct application of the criteria. This will be completed by the
end of the calendar year.

With the above response, FFP/W and USAID/Uganda consider Recommendation 10
fully addressed and closed.

Recommendation 11: We recommend that the USAID Office of Food for Peace
revise its branding strategy for the P.L. 480 Title II non-emergency food aid
program in Uganda to focus more on direct communication with project
beneficiaries.

Response to Recommendation 11: FFP/W and USAID/Uganda agree with the
recommendation. FFP/W will review Branding and Marking Plans. PREP guidance
for Fiscal Year 2011 (http://www.usaid.gov/our_work/humanitarian_assistance/
ffp/fy11 .prepgdraft.pdf), states:

Each year, the AOTR will revisit the Branding Strategy and Marking Plan (B&M)
and will consider changes in country program operating environment when
reviewing the Pipeline Resource and Estimate Proposal (PREP). If changes
have occurred, the AOTR may need to work with awardee, i.e., PVOs, to update
the B&M during the PREP review process. If difficulties arise, the AOTR will
consult with the Missions to determine what their standards are for the B&M in
the country and/or region.

In accordance with this new procedure, during the Fiscal Year 2011 PREP process,
FFP/W will review the Branding Strategy and Marking Plan in consultation with the
awardees and Mission staff, and update if necessary. Updates will be completed
before the end of this calendar year.

With the above response, FFP/W and USAID/Uganda consider Recommendation 11
fully addressed and closed.

Conclusion
This Memorandum provides the FFP/W and USAID/Uganda management response and
closure on each of the eleven recommendations outlined in RIG/Pretoria’s Memorandum
dated September 17, 2010.




                                                                                            28
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
